:/.~~s~ DEPARTMENT OF HEALTH &. HUMAN SERVICES


\ :;l­
..+.l.t
      .ll'...no
                                                                                                 Office of Inspector General


                                                                                                 Washington, D.C. 20201





                                                                                 SEP 2 5 2006





                   TO:	                    Mark B. McClellan, M.D., Ph.D.

                                           Administrator

                                           Centers for Medicare & Medicaid Services


                   FROM:	                  Daniel R. Levinson ~ lJ ~

                                           Inspector General


                   SUBJECT:	 Ernst & Young Final Report: "Review of the Centers for Medicare &

                             Medicaid Services' Medicaid Financial Management Oversight"


                  Attached is a final report by contractors Ernst & Y Qung (E& Y) regarding financial
                  management of  the Medicaid program. Under a contract with the Offce of 	
                                                                                            Inspector
                  General, E& Y conducted this review to provide recommendations for improving the
                  financial management of the Medicaid program.

                  To accomplish the objectives, E&Y reviewed the current Centers for Medicare &
                  Medicaid Services management structure, examined prior studies and audits, compared
                  the financial management structues and activities of Medicare to those of Medicaid, held
                  discussions with various stakeholders, and analyzed the issues identified through these
                  activities. The E& Y report contains a series of findings, conclusions, and
                  recommendations.

                  If you have any questions or comments about this report, please do not hesitate to call
                  me, or your staff may contact Judy Holtz, Acting Director of
                                                                                     External Affairs, at
                  (202) 619-0260 or through e-mail at (Judy.Holtz(goig.hhs.gov). To facilitate
                  identification, please refer to the report title in all correspondence.

                  Attachment

                  cc: Barry Clendenin
                      Offce of Management and Budget

                       Christine Jones

                       Office of the Assistant Secretary for Resources and Technology

REVIEW    OF

the Centers for Medicare & Medicaid Services’
Medicaid Financial Management Oversight
!@#                                                   r Ernst & Young LLP                r Phone:   (202) 327-6000
                                                         1225 Connecticut Avenue, N.W.     www.ey.com
                                                         Washington, D.C. 20036




To the Inspector General of the
Department of Health and Human Services and
the Administrator of the Centers for Medicare & Medicaid Services

In connection with our audits of the Health Programs within the Centers for Medicare &
Medicaid Services’ (CMS) for the years ended September 30, 2005 and 2004, we were engaged
by the Office of Inspector General to perform certain additional procedures to assess the
financial management activities of the Health Programs. The purpose of these procedures was to
review CMS’ current financial management oversight of the Medicaid program in regard to its
organization and administration and provide recommendations for improving future oversight
functions and/or processes that would strengthen the financial management of the Medicaid
program.

We conducted our procedures in accordance with the performance audit requirements of
generally accepted Government Auditing Standards. Our procedures involved the following:
(1)reviewing the current management structure, (2) examining prior studies and audits,
(3)comparing Medicare to Medicaid, (4) holding discussions with various stakeholders, and
(5)analyzing issues or lack of corrective action identified through the above mentioned
activities, to the extent possible, which may or may not be linked to deficiencies in CMS’
organization and administration of Medicaid financial management.

This report contains various findings, conclusions, and recommendations for the improvement of
the internal control structure of Medicaid financial management and oversight activities.

We would be pleased to discuss the contents of the report or to respond to any questions at your
convenience.




August 30, 2006 

Washington, DC 





                                A Member Practice of Ernst & Young Global
                         Centers for Medicare & Medicaid Services 

                             Medicaid Financial Management 

                                     Table of Contents 




                                                                                   PAGE
                                  SECTION                                         NUMBER

   •	 Results in Brief                                                              1

   •	 Background                                                                    3

   •	 Objectives, Scope and Methodology                                             6

   •	 Comparisons of Medicaid to Medicare to Identify Differences In Program        9

      Oversight 

   •	 Progress Noted on Corrective Actions; However Further Enhancements            12 

      Are Needed 

   •	 Organizational Structure Creates Challenges                                   15 

   •	 Payment Error Rate Measurement Development and Implementation Still           17 

      in Process 

   •	 State Oversight and Single Audit Primary Test for Eligibility and Program     19 

      Compliance

   •	 Recommendations for Executive Action                                          19 

   •	 Agency Comments and Our Evaluations                                           21 

   •	 Acronyms                                                                      22 

   •	 Other Related Products                                                        23 


Appendix A: Status of Corrective Actions

Appendix B: Centers for Medicare & Medicaid Services Written Response
RESULTS IN BRIEF

As early as the 1990s, the Government Accountability Office (GAO) and other auditors have
identified weaknesses in the administration and oversight of Medicaid activities. The Medicaid
program, administered by Centers for Medicare & Medicaid Services (CMS), in partnership with
State Medicaid offices,1 is a complex program that has expanded since 1998 by more than 86%
or to $182 billion in net Federal costs in fiscal year 2005. Over the past five years, CMS has
received additional funding and undertaken a series of initiatives to enhance and focus its
financial management and oversight of the Medicaid program. Many of these initiatives are a
result of legislative directives allowing for more resources and changes in program policies.
Although many of these directives were not fully implemented at the time of our review, which
took place principally from January through May 2005, progress has been identified. Continued
focus and development of strategies by senior level executives will be required to ensure that
appropriate actions are completed.

The weaknesses identified in our review of prior reports consisted largely of (1) organizational
structure limitations that impact CMS headquarter and regional office oversight, (2) insufficient
program integrity programs, including an estimate of improper payments, (3) insufficient follow-
up of eligibility determination deficiencies cited in single audit2 reports, and (4) need for clear
cut guidelines for approving and reviewing waivers and state plan amendments. We have
obtained information on the status of recommendations made in the prior audits and studies we
reviewed. These recommendations address ways CMS could define lines of authority or
restructure its organization, the need to continue to develop strategies in implementing new
directives and allocating resources, and the continued need to improve internal control over
certain aspects of administration and oversight within the Medicaid program.

CMS’ organizational structure creates challenges in effectively administering and overseeing
Medicaid activities. We noted two areas—regional office resources and the lack of a separate,
dedicated Chief Financial Officer (CFO) within the Office of Centers for Medicaid and State
Operations (CMSO)—where discussions with certain CMS personnel indicated concern that the
organizational structure for Medicaid activities was not designed appropriately or lines of
authority are unclear. CMS’s 10 regional offices are the Federal government’s frontline for
overseeing state Medicaid financial operations and expenditures. Because Medicaid is a state
administered program the personnel in the regional offices act as liaisons between CMSO and
states regarding Medicaid financial activities. The accountability of these personnel to the
CMSO merits further focus. Resource allocation decisions made within the regional offices can
weaken CMS’ ability to ensure appropriate oversight of the Medicaid activities. Further,

1 For purposes of this report, States represent states, territories and the District of Columbia Medicaid Program offices.


2 OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations was issued pursuant to the Single Audit Act of 1984
and the Single Audit Act Amendments of 1996. Under the Act, annually, each state’s Medicaid program is required to be audited. The Circular
was established to provide reasonable assurance that Federal financial assistance programs are managed in accordance with applicable laws and
regulations. These audits are conducted by independent public accountants or state auditors. The results of these audits are provided to the state
and CMS. In addition to assessing whether CMS oversight should be changed based on the findings, the CMS is responsible for following up
with the state to ensure that the state takes appropriate action to correct deficiencies identified from the audit.




                                                                                                                                         Page 1
although the Medicaid program is one of the Federal Government’s largest programs—soon to
reach $200 billion in Federal outlays, a separate, dedicated CFO or an independent executive to
oversee financial activities has not been created. Currently, financial management oversight is
primarily taking place within the CMSO with bookkeeping responsibilities and certain program
integrity activities taking place within the CMS Office of Financial Management (OFM). Our
discussions found varying opinions as to whether Medicaid needed a CFO. Stakeholders’ views
noted potential benefits of perceived increased independence and transparency into decision
making while raising concerns about the specialized expertise needed to effectively implement a
separate CFO function and possible diffusion of accountability.

Our review also noted that a primary tool that CMS utilizes in testing the states’ quality control
systems over determination of eligibility and verifying compliance with program laws and
regulations is the states’ single audits. During FY 2005, we noted during our audit of the
Medicaid program that over 10% of the states received disclaimed opinions or qualified reports
by independent auditors on compliance with Medicaid program requirements—the majority of
these disclaimed opinions or qualifications were a result of noncompliance with eligibility
requirements. There is limited follow-up on corrective action plans surrounding the single audits
by both the states and CMS. It was unclear how, if at all, single audit findings or disclaimed
opinions had been considered in the CMS Medicaid program oversight. Our discussions
indicated that CMS should expand its role in its oversight of the states’ assessment of eligibility.
Because statutory eligibility determination was assigned to the states, the stakeholders believed
that CMS’ role should be in overseeing the implementation of quality control systems at the
states to reduce errors in eligibility determination. Subsequent to our fieldwork, CMS noted that
increased focus on resolution of external audits was being implemented.

Recent initiatives to provide an additional 100 personnel focused on Medicaid financial
management, and just enacted legislation to add a further 100 personnel and additional financial
resources focused on program integrity, are significant steps that can dramatically enhance the
role the Federal government plays in managing the Federal and state partnership for Medicaid.
Factors for CMS to consider as it develops its plans to deploy resources include placing
additional focus on how such resources are deployed and utilized, efforts to provide transparency
in how state plan amendments, waivers, and routine Federal oversight activities are conducted
with visibility into outcomes across states to the extent practical, and/or potentially introducing
financial management oversight through a CFO organization independent of program
administration activities.

During June 2006, the GAO issued its report, MEDICAID FINANCIAL MANAGEMENT: Steps
Taken to Improve Federal Oversight but Other Actions Needed to Sustain Efforts (GAO-06-705)
which discusses the status of Medicaid financial management oversight and the actions CMS has
taken to address certain concerns identified in its previous reports. GAO’s review was
performed under different timeframes, and actions taken subsequent to the end of fieldwork may
not be included in this report.




                                                                                              Page 2
 BACKGROUND

 The Medicaid program, established in 1965, by Title XIX of the Social Security Act, provides
 grants to states for health and long-term care coverage to low income Americans including
 children, the elderly, and the disabled. Medicaid is the largest source of funding for medical and
 health-related services for people with limited income. During FY 2005, the average enrollment
 for the Medicaid program was 44.7 million Americans at a net cost of approximately $182.2
 billion.

 CMS is the Federal agency responsible for administration and oversight of the Medicaid program
 and is responsible for ensuring that State Medicaid programs meet all Federal requirements.
 Staff members in CMS’ central office in Baltimore, Maryland and in 10 regional offices across
 the country are responsible for the financial oversight of the Medicaid program. Both the Office
 of Financial Management (OFM) and the CMSO play a role in this oversight and administration
 of Medicaid activities, as do many other entities as discussed below.


            Entity                                              Responsibility
Centers for Medicaid and State •    Processes and recommends approval of waivers and state plan
Operations (CMSO)                   amendments.
                               •    Develops, interprets, and applies specific laws, regulations, and policies
                                    that directly govern the financial operation and management of the
                                    Medicaid program.
                                •   Acts as the focal point for all agency interactions with states.
                                •   Develops national Medicaid policies and procedures that support and
                                    assure effective program administration.
                                •   Develops in consultation with the states, and tests new methods to
                                    improve the Medicaid programs through best practices.
                            •       Monitors program integrity efforts and activities performed by states.
Centers for Medicare & •            Acts as a liaison between CSMO and states.
Medicaid Services (CMS) •           Reviews the state budget and expenditure submissions and preparation
Regional Offices                    of the regional decision report based on the submissions from the states.
                            •       Supports CSMO on program integrity efforts.
Centers for Medicare & •            Records disbursement and accrual based financial activity related to
Medicaid Services Office of         Medicaid to financial systems.
Financial Management (CMS •         Oversees the Medicaid Payment Error Rate Measurement Programs
OFM                                 process (PERM).
                            •       Performs financial reconciliation and financial analyses processes of
                                    Medicaid activities.
                                •   Responsible for all CMS disbursements including the issuance of state
                                    Medicaid grants.
Department of Health and        •   Oversees annual CFO financial audit of Medicaid activities.
Human Services (DHHS)           •   Performs program and financial audits.
Office of Inspector General     •   Tracks open recommendations.
(OIG)                           •   Tracks single audit reporting from states.




                                                                                                Page 3
           Entity                                                     Responsibility
Department of Health and                •   Provides grant payments to the states and cash management services for
Human Services Division of                  CMS.
Payment Management (DPM)                •   Oversees the states’ quarterly reporting of fund draws and available
                                            obligations.
State Medicaid Offices                  •   Administers the Medicaid program to local beneficiaries.
                                        •   Determines eligibility of participants (frequently at the local
                                            government).
                                        •   Pays the providers for Medicaid services.
                                        •   Ensures proper payment and recovery of funds paid for unallowable
                                            claims.
                                        •   Responsible for investigating and ensuring prosecution of Medicaid
                                            fraud.
                                        •   In some cases, voluntarily obtains SAS 703 reports on controls on
                                            Medicaid financial management systems.

State Auditors and                      •   Performs/oversees state single audits.
Independent Public                      •   Performs state audits and reviews.
Accountants

 Medicaid is financed through a partnership between the Federal government and states. States
 are required to submit to CMS a comprehensive written plan that describes the nature and scope
 of its program. If the state plan meets Federal requirements, the Federal government matches
 state expenditures on Medicaid based on a statutorily defined formula called the Federal
 Matching Assistance Percentage (FMAP). This matching rate varies by state and is currently
 between 50 and 77 percent. These payments are processed by the DHHS Division of Payment
 Management (DPM). There is no limit or cap to the amount of state expenditures the Federal
 government will match, except with respect to the disproportionate share programs and payments
 to territories. The process states use to fund their share can include provider taxes and other
 mechanisms that have been assessed in some cases as abusive.

 At the Federal level, the CMSO in conjunction with the regional offices and the OFM have
 responsibilities in the oversight of the Medicaid program. The CMSO is responsible for
 approving state Medicaid plans, working with the states on program integrity exclusive of the
 PERM, awarding grants, and budgeting. Many management oversight activities for Medicaid
 are taking place within CMSO with the Director of CMSO functioning as the Medicaid CFO.
 Currently, the CMS CFO, located in OFM, also functions as a CFO for Medicare. The OFM is
 responsible for the issuance of the cash disbursements for the grants that have been awarded by
 CMSO, oversight of the PERM, and the performance of financial reconciliations and analyses.
 The ROs are responsible for overseeing state financial management and internal controls,

 3
  CMS, and in some cases the states are contracting with Independent Public Accountants to perform a Statement of
 Auditing Standards No. 70, Reports on the Processing of Transactions by Service Organizations (SAS 70) reports.
 These reports provide for a service organization's description of its controls that may be relevant to a client's internal
 control, on whether such controls had been placed in operation as of a specific date on whether they are suitably
 designed to achieve specified control objectives and on whether the controls that were tested were operating with
 sufficient effectiveness to provide reasonable, but not absolute, assurance that the related control objectives were
 achieved during the period specified.

                                                                                                                    Page 4
ensuring the reasonableness of budgets reported to estimate Federal funding requirements, and
ensuring the propriety of expenditures reported for Federal matching.

Key activities performed in CMS ROs include reviewing state budget estimates and expenditure
reports, preparing decision reports that document approvals for Federal reimbursements and
reimbursement deferral actions, providing technical assistance to the states, and serving as a
liaison to the state and audit entities. The CMS Regional Administrators report to the CMS
Administrator. CMSO relies on regional decision reports to help determine state grant awards.
The OFM is responsible for all CMS disbursements including the issuance of disbursements for
state Medicaid grants. Reviews of the Medicaid expenditure reports are the primary oversight
control activities performed by regional financial analysts. These reviews are used to determine
if Medicaid expenditures are complete, properly supported by the state’s accounting records,
claimed at appropriate Federal matching rates, and allowable in accordance with existing Federal
laws. Regional analysts are expected to obtain knowledge about each state’s financial
management and internal control to aid in assessing the expenditures reported for Federal
reimbursement. Although the regional financial analysts maintain an integral role as they are
responsible for performing frontline activities to oversee state financial management activities,
personnel do not report to CMSO, but instead to the CMS Regional Administrators, who report
to the CMS Administrator.

In accordance with Federal guidelines, each state has latitude to design their individual Medicaid
programs with respect to administrative structure, eligibility, services and payment. Each state is
also responsible for establishing an adequate internal control to ensure that the Medicaid
program is managed effectively and efficiently within the Federal requirements. Quarterly,
states submit various Federal reporting forms through the Medicaid Budget and Expenditure
system (MBES) that provide regional analysts with the budget and expenditure data to execute
their financial management and oversight responsibilities.

Annually, each state’s Medicaid program is required to be audited under Office of Management
and Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations. The Circular was established to provide reasonable assurance that Federal
financial assistance programs are managed in accordance with applicable laws and regulations.
These audits are conducted by independent public accountants or state auditors. The results of
these audits are provided to the state and CMS. The CMS is responsible for following up with
the state to ensure that the state takes appropriate action to correct deficiencies identified from
the audit.

In FY 2004, CMS was provided funding to hire 100 additional full time equivalent (FTE)
“funding specialists” to support its oversight of Medicaid activities. Specifically, CMS tasked
the funding specialists to monitor state budget-making processes, examine quarterly funding
requests and work with states to ensure that the administration of Medicaid activities within the
state meet Federal requirements. These individuals, although mostly located in the states and
regions, report directly to CMSO. During FY 2005, the new FTEs were sent to extensive
training to understand their new job requirements. In FY 2006, an additional 100 FTEs, and
additional funding, were provided by the Deficit Reduction Act (DRA) to support Medicaid
program integrity activities. These resources are in the process of being deployed. Finally, in
FY 2006, the Payment Error Rate Measurement Program (PERM) is being implemented. Under

                                                                                             Page 5
the PERM, Medicaid has 3 components – a fee-for-service error rate, an eligibility error rate, and
a managed care error rate. A national contractor will calculate the Medicaid fee-for-service and
managed care error rates for each state once every 3 years or 17 states each year. The states will
conduct an eligibility review once every 3 years and submit the results to CMS for calculation of
the states eligibility error rate. The PERM is to be published as an interim final rule at the end of
August 2006.


OBJECTIVES, SCOPE AND METHODOLOGIES

The purpose of this project was to review CMS’s current financial management oversight of the
Medicaid program in regard to its organization and administration and provide recommendations
for improving future oversight functions and/or processes that would strengthen the financial
management of the Medicaid program. We accomplished this project by performing the
following: (1) reviewing the current management structure, (2) examining prior studies and
audits, (3) comparing Medicare to Medicaid, (4) holding discussions with various stakeholders,
and (5) analyzing issues or lack of corrective action identified through the above mentioned
activities, to the extent possible, which may or may not be linked to deficiencies in CMS’
organization and administration of Medicaid financial management. For the purpose of defining
the scope of this project, we considered GAO’s definition of Medicaid financial activities.
GAO’s February 2002 report, Medicaid Financial Management: Better Oversight of State
Claims for Federal Reimbursement Needed, defines Medicaid financial activities as follows:
   “The internal control structure and financial oversight process that CMS has designed for
   Medicaid includes activities for:
   •	 approving and awarding grants to make funds available to the States for the efficient
      operation of the Medicaid program;
   •	 overseeing State financial management and internal control processes;
   •	 ensuring the reasonableness of budgets reported to estimate Federal funding
      requirements;
   •	 ensuring the propriety of expenditures reported for Federal matching funds.”

During our assessment we did not consider processes within the states or processes related to
identifying funding mechanisms, except insofar as they related to understanding the need for
Federal oversight resources, as they were excluded from the scope of this engagement. We did,
however, consider additional program controls that are currently under development such as the
Medicaid and State Children’s Health Insurance Program (SCHIP) PERM; Medicare/Medicaid
data matches; automated reporting systems and recently added Federal resources devoted to
Medicaid financial management and program integration.

Specific tasks included:
   •	 To develop and document a thorough description of CMS’ current financial management
       oversight activities of the Medicaid program, we worked with the management of CMS
       and other selected oversight entities to obtain an understanding of the processes and gain



                                                                                               Page 6
   concurrence from management as to the accuracy of our documentation. Specific steps
   performed included:
   o	 We met with personnel from the CMSO, OFM, OIG, two regional offices including
       New York and Pennsylvania, and two funding specialists from Washington, D.C. and
       Maryland and obtained an understanding of the Medicaid process. Additionally, we
       met with individuals from the states of Maryland and New York Medicaid office to
       obtain an overview of state Medicaid activities.
   o	 We reviewed prior year audit work papers and met with personnel involved in fraud
       and abuse activities, MMIS, MSIS, and the PERM.
   o	 We obtained and reviewed CMS’ manuals and training guides related to Medicaid
       activities.
   o	 We reviewed a complete list of all Medicaid budget, expenditure, and accounting
       reports that states are required to submit based on related legislation, regulation, State
       Medicaid Manual instruction, or CMS directive. We reviewed the State Medicaid
       Manuals to compile a list of reports submitted by the states.
   o	 We received a list of the total Federal dollars spent on financial management, Health
       Care Fraud and Abuse (HCFAC), Medicaid Fraud Control Units, Federal match of
       state and local administration, PERM project, etc., for the most current reporting
       period.
   o	 We obtained and reviewed a complete listing of all Federal electronic databases and
       information technology (IT) systems that are used in the financial management and
       program integrity of the Medicaid program.
   o	 We obtained a detailed organizational chart of all central and regional offices’
       divisions/groups/defined teams working in CMS that have a significant role in
       Medicaid financial management and program integrity. This organizational chart
       identified the lines of reporting between the central office and the regional offices
       with respect to financial management and program integrity.
   o	 Based on information received, we prepared a thorough description of all current and
       upcoming Medicaid financial management activities, including process flowcharts of
       a typical Medicaid claim transaction, including the reporting process, the information
       systems and databases used, documents, and CMS personnel involvement.
•	 We obtained documentation and made certain comparisons between the Medicare and
   Medicaid financial management and oversight processes.
•	 We performed a literature search of GAO and OIG reports and other selected sources to
   aid in identifying issues regarding vulnerabilities of the Medicaid program and related
   such information, as appropriate, to potential gaps in oversight structures. We met with
   CMS personnel to discuss the status of corrective actions and determined which issues
   still existed.
•	 Under the initial task order, we were requested to facilitate a one-day meeting with CMS
   management, OIG and other selected stakeholders to validate the oversight structures
   identified and aid in validating gaps identified in prior phases of the work and in
   identifying gaps and/or potential areas for improvement based on input from the
   attendees. Our task order was subsequently amended on September 15, 2005 to cancel the
   one-day meeting and instead hold separate discussions with Federal senior management


                                                                                           Page 7
      personnel responsible for various activities of Medicaid financial management that were
      made available to us from CMS/CMSO, CMS/OFM, ASRT (formerly ASBTF), OMB,
      GAO and OIG (hereafter referred to as stakeholders).               The discussions primarily
      addressed the following questions.
      o	 What are the primary differences between CMS’s current financial management of
          the Medicaid and Medicare programs? What improvements could CMS realize by
          applying some aspects of the Medicare approach to Medicaid financial management?
      o	 What previously published GAO, OIG and audit findings, conclusions and
          recommendations continue to present the greatest risk to Medicaid financial
          management, either because the recommendations have yet to be addressed or
          corrective action has not fully addressed the basis of the recommendation? What
          actions has CMS taken to date regarding these issues?
      o	 What, if any, vulnerabilities exist related to CMS’ current organizational structure of
          Medicaid financial management? How does dissemination of financial review
          responsibilities to regional offices affect CMS oversight? Are lines of reporting for
          financial specialists clear? Should CMS create a separate Medicaid CFO?
      o	 What progress has CMS made to date toward creating and publishing PERM in the
          Medicaid program? Once the PERM implementation is completed, how will the
          resulting measures be used to improve Medicaid program integrity? What additional
          activities are needed to generate comparable data useful for program oversight?
      o	 What financial management activities are currently in place at the Federal level
          regarding eligibility determinations? Are Federally mandated requirements regarding
          eligibility determinations at the state/local level sufficient? What additional activities
          could the Federal government take to improve eligibility controls (such as assisting
          program participants with best practices or increasing standardization of eligibility
          determinations)?
   •	 Based on our discussions, we analyzed those problems identified by the stakeholders and
      linked them, as appropriate to potential gaps in CMS’s organization and administration of
      Medicaid financial management.
We performed our principal fieldwork from January 2005 through May 2005, at the CMS central
office in Baltimore, Maryland, DHHS headquarters, the two regional offices and the two states,
mentioned above. Through March of 2006, we conducted the separate discussions referenced
above to document Medicaid financial management and oversight activities and to gain a status
of corrective actions identified in previous GAO and OIG reports and to gain their perspectives
on areas for improvement and potential solutions.

During June 2006, the GAO issued its report, MEDICAID FINANCIAL MANAGEMENT: Steps
Taken to Improve Federal Oversight but Other Actions Needed to Sustain Efforts (GAO-06-705)
which discusses the status of Medicaid financial management oversight and the actions CMS has
taken to address certain concerns identified in its previous reports. GAO’s review was
performed under different timeframes, and actions taken subsequent to our end of fieldwork may
not be included in this report.




                                                                                              Page 8
COMPARISONS OF MEDICAID TO MEDICARE TO IDENTIFY DIFFERENCES IN
PROGRAM OVERSIGHT

The CMS, one of the largest purchasers of health care, had outlays of more than $484 billion
during FY 2005. The majority of these outlays related to CMS’ administering of the Medicare
and Medicaid programs. The CMS is responsible for establishing policies for program eligibility
and benefit coverage processes for over one billion Medicare claims annually, providing states
with funds for Medicaid/SCHIP, and safeguarding funds from waste, fraud and abuse. As part of
this engagement, we were asked to perform a comparison of the Medicare and Medicaid
programs.

The Medicare program, established in 1965, was legislated as a complement to Social Security
retirement, survivors, and disability benefits, and originally covered people aged 65 and over. In
1972, the program was expanded to cover disabled and people with end-stage renal disease. The
Medicare program processes over one billion fee-for-service claims a year incurring costs of
over $300 billion a year for approximately 42 million beneficiaries. In the past several years,
with the implementation of the Medicare drug plans and other new programs, Medicare costs
have continued to rise. Medicare contractors administer the day-to-day operations of the
Medicare program by paying claims, auditing provider cost reports, and establishing and
collecting overpayments. CMS is responsible for establishing an adequate internal control to
ensure that the Medicare program is managed effectively and efficiently within the Federal
requirements. It establishes nationwide coverage rules and disseminates these rules to the
contractors. The administration and oversight of financial activities is primarily the responsibility
of the CMS headquarters—the OFM—and the regional offices. Additionally, CMS uses
independent certified public accountants to review Medicare contractor financial balances and
financial systems in order to validate the adequacy and consistency of internal controls. On a
monthly basis, Medicare contractors perform a reconciliation of their Form CMS 1522 Funds
Expended Reports to their paid claims or system reports. In FY 2004, CMS initiated its
implementation of the Healthcare Integrated General Ledger Accounting System (HIGLAS), its
new program-wide financial management system, at the contractor locations.

The Medicaid program, on the other hand, is a health care program for low-income and disabled
Americans, administered by CMS in partnership with the states. In FY 2005, there were
approximately 44.7 million individuals participating in the Medicaid program incurring Federal
costs of approximately $182 billion. The CMS provides matching payments to the states and
territories to cover the Medicaid program and related costs. State medical payments are matched
according to a formula that uses as a starting point each state’s per capita income. Under Federal
legislation, states set eligibility, coverage, and payment standards. State governments have a
great deal of flexibility to tailor their individual Medicaid programs to their individual
circumstances and priorities. Accordingly, there is a wide variation in the services offered by the
state. Each state is responsible for establishing an adequate internal control to ensure that the
Medicaid program is managed effectively and efficiently within the Federal requirements.
Quarterly, states submit various Federal reporting forms through the Medicaid Budget and
Expenditure system (MBES) that provide regional analysts with budget and expenditure data to
execute their financial management and oversight responsibilities. In addition, annually each
state’s Medicaid program is audited under OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations. In general the results of these audits are provided

                                                                                               Page 9
to the state and made available to the responsible Federal agencies which awarded the grants. In
addition to administering a broad framework of the program under Federal legislation and
regulations, CMS’ primary roles in the Medicaid program are paying matching funds to the
states and ensuring that the states conform to Federal requirements. Additionally, CMS is
responsible for following up with the state to ensure that the state takes appropriate action to
correct deficiencies identified from the single audits.

In our comparison of Medicaid to Medicare, we reviewed three components: the organizational
structure, the program integrity activities, and the role of the intermediary versus the states.
Primary differences for each component are as follows:

Organizational Structure—the organizational structures for the programs were similar in the
sense that both utilize headquarters and regional office personnel to oversee the program.
Differences noted are as follows:
   •	   Although the organizational structure identifies the activities of a CFO for the Medicaid
        function as falling under the responsibilities of the Director of CMSO, significant
        financial activities are taking place in the ROs. The personnel in the ROs report to
        Regional Administrators, who further report to the CMS Administrator. Certain
        processing functions and the newly developed PERM responsibilities are taking place
        within the CMS CFO office located in the OFM. Beginning in September 2004, CMS
        hired 100 funding review specialists who report to CMSO even though they are
        nominally attached to a RO to assist in certain financial management activities. In the
        Medicare program financial activities are being reviewed by the CFO of CMS, and
        Regional offices are executing limited financial management related to disbursements.
   •	 While regional office personnel are utilized in the oversight of financial activities in both
      the Medicare and Medicaid programs, because Medicaid is administered as a
      Federal/State partnership, there are less Federal FTEs supporting the financial
      management oversight function of the Medicaid process. In both cases, the regional
      personnel report to regional administrators instead of headquarters personnel responsible
      for administrating the programs.
   •	 Oversight of financial management activities in the Medicaid program is different due to
      the nature of the Medicaid program. CMS is responsible for administering Medicare’s
      day-to-day operations and overseeing the contractors. Over the last 10 years, for
      Medicare, CMS has developed processes to periodically independently assess carriers
      and intermediary activities through use of SAS 70 audits. For Medicaid, regional office
      reviews of state submissions of budget and execution reports, and State single audit
      reports are the primary means of overseeing the Medicaid financial activities.
   •	 From a payment perspective, while Medicaid pays its states through grants administered
      by the DHHS PDM, Medicare pays its contractors utilizing draws through commercial
      banking institutions.

Program Integrity Activities—As both the Medicaid and Medicare programs grow in costs and
complexity, program integrity activities within CMS have become more critical in ensuring that
the programs are administered effectively and efficiently. Up until the last several years, Federal
resources applied to Medicaid program integrity activities were very limited as compared to

                                                                                            Page 10
Medicare; however, both programs have implemented or expanded program integrity activities
to identify potential deficiencies. Although the Medicare program integrity activities are more
developed, additional resources are being provided to support the development of additional
programs within Medicaid.

For Medicare, program integrity activities primarily take place under the authority of the OFM.
The Medicare program includes a nationwide statistically derived sample of claims to project an
annual error rate in the Comprehensive Error Rate Tracking program (CERT), and periodic
reviews of controls at intermediaries (SAS 70s.)

Program integrity activities within the Medicaid program are more diverse in that these activities
take place largely in the states, but are augmented to some extent, through CMS’ oversight. For
example, the Medicare/Medicaid Data Match and the PERM, which is currently under
development, are the responsibility of the OFM, state single audits are performed in the states,
and the Medicaid Alliance for Program Safeguards (MAPS), and Medicaid Eligibility and
Quality Control (MEQC) are performed within CMSO. The Focused Financial Management
Reviews are performed at the ROs. To improve national consistency in the issuance and
application of Medicaid reimbursement policies, the National Institutional Reimbursement Team
(NIRT) and the National Non-Institutional Provider Team (NIPT) were recently developed
within CMSO. The NIRT is responsible for reviewing all institutional State Plan Amendments
(SPAs), providing technical assistance to the states, and developing Medicaid institutional
reimbursement regulations and policy. NIPT functions similarly to the NIRT, but for non
institutional providers, namely physicians.

In the Deficit Reduction Act (DRA) of 2005, Congress has approved an additional 100 FTEs to
increase its focus on Medicaid program integrity activities. In section 6035 of the DRA,
Congress mandated CMS to enter contracts with “eligible entities” to perform some of the very
functions that Medicare payment contractors have historically performed (prepayment reviews
of claims, audits, identification and return of overpayments, provider outreach and the like). The
following table presents a key comparison of major program integrity activities of the Medicare
and Medicaid program:

                                     Medicare                                Medicaid
Program        Integrity   •   Comprehensive Error Rate      •   Medicaid Alliance for Program
Activities                     Tracking (CERT)                   Safeguards (MAPS)
                           •   Hospital Payment Monitoring   •   Medicaid Eligibility and Quality Control
                               Program (HPMP)                    (MEQC)
                           •   Audit Quality Review (AQR)    •   Payment Error Rate Measurement
                           •   Medicare Program Integrity        (PERM) under development
                               (MIP)                         •   State single audits and desk reviews
                           •   Medicare/Medicaid Match       •   Focused Financial Management Reviews
                           •   SAS 70 IT Audits              •   Medicare/Medicaid Match
                                                             •   Voluntary SAS 70 IT audits at certain
                                                                 states
                                                             •   State Plan Amendments (SPA) and
                                                                 waiver reviews




                                                                                                     Page 11
Role of the Carriers and Intermediaries Versus the States — For Medicare activities, CMS
establishes and disseminates nationwide coverage rules to carriers and intermediaries which are
intended to be uniformly implemented. Intermediaries provide local administration of the
Medicare Program by processing Medicare benefit claims and issuing benefit checks to
providers. The Medicare contractors provide technical assistance to providers and service
beneficiaries’ needs, and respond to inquiries. The providers are responsible for the services to
the Medicare participants. The regional office employees mainly provide direct services to
Medicare contractors, state agencies, health care providers, beneficiaries, and the general public.

The Medicaid program is substantially less uniform. Within broad national guidelines set by the
Federal government states administer the Medicaid and SCHIP programs. Each of the states
establishes its own eligibility standards; determines the type, amount, duration, and scope of
services; sets the rate of payment for services; and administers its own program. The states also
prepare budget and expenditure reports quarterly and submit them to the regional office for
review. Nationwide, there are 10 regional offices with the responsibilities of acting as a liaison
between central office and the states, reviewing the budget and expenditure submissions from the
states, and preparing the regional decision report based on the submissions from the states, and
transmitting that decision to CMSO. The CMSO serves as the focal point for all agency
interactions with states and local governments. The CMSO develops national Medicaid policies
and procedures that support and assure effective state program administration. The states and
CMSO develop and test new and innovative methods to improve the Medicaid programs through
demonstrations and best practices.

We discussed our comparison of the two programs with the stakeholders. Most stakeholders
indicated that because of fundamental differences in the programs, while the comparison of the
Medicare program to the Medicaid program can be useful in identifying high level gaps (for
example, lack of a PERM process) it was less useful in assessing how financial management
activities are carried out. Our analysis supported the view that the Medicare financial
management approach is not directly applicable to the Medicaid program because of the
fundamental differences in the programs.


PROGRESS NOTED ON CORRECTIVE                            ACTIONS;       HOWEVER          FURTHER
ENHANCEMENTS ARE NEEDED

Beginning in the mid 1990s, GAO, the OIG and other financial auditors have identified and
reported on serious deficiencies in the financial management activities and oversight of the
Medicaid programs. The weaknesses identified in our review consisted largely of (1)
organizational structure limitations that impact CMS headquarter and regional office oversight,
(2) insufficient program integrity programs including an estimate of improper payments, (3)
insufficient follow-up of single audit report deficiencies particularly as they relate to eligibility
determination, and (4) need for clear cut guidelines for approving and reviewing waivers and
state plan amendments. Recommendations to address these weaknesses included ways CMS
could define lines of authority or restructure its organization, the need to continue to develop
strategies in implementing new directives and allocating resources, and the continued need to
improve internal control over certain aspects of administration and oversight within the Medicaid
programs. In the past several years, CMS has focused on resolving several of these issues

                                                                                              Page 12
identified; however, more progress is needed to resolve many of the more complex issues. As
part of this engagement, we have reviewed the status of corrective actions regarding Medicaid
financial management. Appendix A discusses the issues and recommendations identified in prior
reports and corrective actions taken.

Over the past several years, CMS has focused on making improvements to its Medicaid financial
management processes. Many of these improvements are still underway and have taken
significant resources and time to implement due to the complexity, the cost, the need for
legislative approval, or limited personnel resources available to the Medicaid financial process.
Steps taken include the following:
   •	 Beginning in FY 2004, CMS was provided the authority to hire 100 FTE funding
      specialists to monitor state budget-making processes, examine quarterly funding requests
      and work with states to ensure that the administration of Medicaid activities within the
      state meet Federal requirements. Additionally, the funding specialists will participate in
      financial management reviews of specific financing arrangements at the states and
      participate in the development of findings related to those reviews. These funding
      specialists are independent of the financial analysts within the RO. As of April 2005, 95
      of the 100 funding specialists had been hired with 10 located at CMSO headquarters and
      85 located in the regional offices and states. All 95 employees have been sent to a formal
      two-week training to provide an understanding of CMSO policies and operations related
      to Medicaid reimbursement and state financing and will attend ongoing training to be
      updated on future changes. We visited two new funding specialists from the State of
      Maryland and the District of Columbia. At the time of our visits—between February
      2005 and April 2005—the funding specialists were in the early stages of learning the
      position. At the time of our interview, it was too early to determine the effectiveness of
      the new funding specialists, what specific tasks they would perform or how they would
      be measured, but their presence was frequently identified as part of the overall solution in
      enhancing Medicaid financial management.
   •	 CMS has instituted a financial management work planning process which was responsive
      to ensure prior organization structure concerns were addressed. Under the process each
      regional office proposes an annual workplan describing specific activities that it will
      perform and be held accountable for throughout the fiscal year. Each regional office
      workplan is reviewed and approved through the Regional Administrator and the CMSO.
      The process incorporates a resource assessment effort and risk assessment and analysis.
      CMS indicated that the goal in establishing the financial management workplan is to
      strengthen CMS’ Medicaid financial oversight by establishing performance expectations,
      to track related actions and their results, and to improve communication among CMSO
      and the regions.
   •	 Analysis of changes in quarterly budget and expenditure submissions is a major
      consideration in the regional office’s recommendation to award a grant or validate
      expenditures and a step in the CMS Financial Review Guide. We noted in our FY 2004
      internal control report that regional office documentation to support the analysis of state
      submissions was not adequate. Ongoing training has been provided for CMSO and
      regional office personnel to ensure up-to-date knowledge of CMSO financial
      management and oversight policies.         The FY 2005 report on internal control noted


                                                                                           Page 13
       certain improvements in documentation related to the analysis of state submissions as
       compared to weaknesses identified during FY 2004.
   •	 To address concerns about the need for additional program integrity issues, the DRA
      passed in early 2006 will provide 100 additional FTEs to support Medicaid activities and
      provide for additional funds in Medicaid integrity programs to improve the accuracy of
      payments in the Medicaid Program. The Act also appropriated an additional $630
      million over the next 10 years to carryout the Medicaid integrity program, as well as an
      additional $125 million over five years.
   •	 As more fully addressed below, CMS initiated its PERM program—a program whose
      methodologies were defined by CMS for consistent application by all states to calculate
      improper payment error rates. Under PERM, Medicaid has 3 components – a fee-a-for
      service error rate, an eligibility error rate, and a managed care error rate. A national
      contractor will calculate the Medicaid fee-for-service and managed care error rates for
      each state once every 3 years or 17 states each year. The states will conduct an eligibility
      review once every 3 years and submit the results to CMS for calculation of the states
      eligibility error rate. The PERM is expected to be published as an interim final rule at the
      end of August 2006.
   •	 In an effort to improve national consistency in the issuance and application of Medicaid
      reimbursement policy, CMS has developed the NIRT, who is responsible for reviewing
      all institutional reimbursement state plan amendments, providing technical assistance to
      the states, and developing Medicaid institutional reimbursement regulations and policy.
      As a result of this effort, CMS believes the team’s work will help ensure consistency in
      the application and review of Medicaid policies. A separate team—NIPT—has also been
      established for non-institutional providers, namely physicians.
   •	 CMS has initiated plans in developing a new financial management system—HIGLAS—
      for the Medicaid and Medicare financial activities. Full implementation is expected by
      FY 2007.
   •	 The FY 2005 CMS financial audit reported that although the methodology currently
      employed by CMS can produce a reasonable incurred-but-not-reported (IBNR) estimate
      for Medicaid financial reporting, the process is highly dependent on information provided
      by the various states. Errors, inconsistencies and varying interpretations at the state level
      can occur and significantly affect the CMS IBNR liability. CMS has developed a
      workgroup consisting of CMSO, the Office of the Actuary (OACT), and OFM to meet
      periodically to discuss the progress in developing a methodology to collect the necessary
      data to estimate an IBNR amount from claims data maintained internally.

Recent initiatives to provide an additional 100 personnel focused on Medicaid financial
management, and just enacted legislation, to add a further 100 personnel and additional financial
resources focused on program integrity are significant steps that can dramatically enhance the
role the Federal government plays in managing the Federal and state partnership for Medicaid.
Factors for CMS to consider as it develops its plans to deploy resources include placing
additional focus on how such resources are deployed and utilized, efforts to provide transparency
in how state plan amendments, waivers, and routine Federal oversight activities are conducted
with visibility into outcomes across states to the extent practical, and/or potentially introducing


                                                                                            Page 14
financial management oversight through a CFO organization independent of program
administration activities.
Although progress has been made and is expected to be ongoing, emphasis is still needed in
completing certain corrective actions and resolving other issues more fully described in the
sections that follow. In its June 2006 report, GAO identified certain actions CMS had taken
subsequent to our fieldwork to address many of these issues.


ORGANIZATIONAL STRUCTURE CREATES CHALLENGES

GAO’s Standards for Internal Control in the Federal Government provides that an agency
organizational structure is appropriate for the nature of its operations and designed so that
authority and internal control responsibility is defined and well understood.             CMS’
organizational structure creates challenges in effectively administering and overseeing Medicaid
activities. We noted two areas—regional office resources and the lack of a separate CFO for
Medicaid —where stakeholders indicated concern that the organizational structure for Medicaid
activities was not designed appropriately or lines of authority were unclear.

Regional Office Resources

As GAO reported in FY 2002, although CMS’s 10 regional offices are the Federal government’s
frontline for overseeing state Medicaid financial operations and expenditures, there are no
reporting lines to the headquarters unit responsible for Medicaid financial management (CMSO).
Currently regional office personnel report to Regional Administrators. Each regional office
proposes an annual workplan describing specific activities that it will perform and be held
accountable for throughout the fiscal year. Each regional office workplan is reviewed and
approved through the Regional Administrator and the CMSO. The process incorporates a
resource assessment effort and risk assessment and analysis. CMS has noted that this plan
cannot be changed without approval of the central office. However, one stakeholder indicated
that because the operating budget for CMS is focused on the payment of Medicare claims,
Medicaid resources are sometimes taken away or shared to perform Medicare responsibilities in
the regional offices. This could happen each time the priorities change or there is a limitation of
available resources. Another stakeholder indicated that lines of authority need to be drawn
between the regional personnel performing key functions and the Headquarter division with
authority over the program. Since ultimately the administration of Medicaid is a shared
responsibility with the states, some stakeholders felt that CMS should consider realigning some
of the regional personnel to report directly to the CMSO to ensure priorities within the Medicaid
process are met. Approximately 65 funding specialists located in the regions are allotted to the
Medicaid program. Beginning in September 2004, 100 funding review specialists were hired
who report to CMSO. The impact of those 100 new specialists has yet to be seen at the end of
our fieldwork.

Lack of Medicaid CFO

Although the Medicaid program exceeds costs of $180 billion—one of the Federal Government’s
largest programs, a CFO or an independent executive to oversee financial activities has not been


                                                                                            Page 15
created. Currently, financial management oversight is primarily taking place within the CMSO
with the Director of CMSO also serving as the CFO. Bookkeeping responsibilities and certain
program integrity activities are taking place within the OFM.

In February 2004, a study, Medicaid’s Federal-State Partnership: Alternatives for Improving
Financial Integrity, performed by the Henry J. Kaiser Family Foundation, suggested that a CFO
be created for the Medicaid program. In the study, the foundation noted that Medicaid pursued
funding without the standing and credibility of a dedicated CFO. It noted that the CMS CFO
does not currently exercise authority over substantive financial matters affecting Medicaid;
instead, those authorities reside in the director of CMSO—the same individual charged with
achieving programmatic objectives and effective working relationships with the states. In its
suggested possibilities for reform, the foundation stated that vesting financial oversight and
authority in executive officers whose sole function is to create and enforce financial controls and
accountability would aid in increasing accountability.

Our discussions identified varying opinions on whether a separate CFO should be appointed to
oversee and create additional emphasis for Medicaid financial management activities. Of the
four stakeholders who expressed a view on this issue, two stakeholders felt that a separate CFO
was warranted. In discussing this point, some of the stakeholders linked this desire for a separate
CFO to a concern that certain funding mechanisms may have been developed in consultation
with CMS, and other potentially costly decisions were made without independent analysis of the
ultimate cost of the changes. Accordingly, routine decision making may have a significant
financial impact inadvertently. The Medicaid program, including reviews of SPAs, was noted as
lacking transparency. SPAs are initially submitted by the states to the CMS ROs then reviewed at
the CMSO through the NIRT and NIPT. SPAs are largely the process where state funding
mechanisms are approved. While SPAs are generally not shared with OMB, demonstration
projects, including assertions that such projects will be budget neutral, are shared with OMB.
Transparency and visibility concerns were raised principally within the context of understanding
how state plans, funding mechanisms and application of the regulatory framework compare
across the states. They were focused on how processes to critically assess and monitor state
plans, funding mechanisms and their implementation could vary by state and create perceived
inequities or give rise to decisions with long term consequences not finally understood by all
stakeholders. Tools such as creating a repository of all state plans, funding mechanisms and
administrative decisions available in a searchable and comparative format were discussed. We
understand that aspects of such a plan are under consideration by CMS, but not funded.
Transparency for decisions made was one perceived possible benefit for a separate CFO
organization. The stakeholders indicated that other formulations to provide such visibility may
be possible.

Views of the four stakeholders presenting a position were as follows:
   •	 One stakeholder felt that a separate CFO could create more visibility into the Medicaid
      program. The sense of this discussion; however, was to question whether, depending on
      how such a separate CFO function was created and staffed, there would be a substantive
      change in the decision making process and visibility into key decisions.
   •	 Another stakeholder indicated they believe there should be a separate CFO for Medicaid
      activities. It would provide for a clearer segregation of duties between the program and


                                                                                            Page 16
       financial processes, demonstrate independent oversight of program activities by a
       separate financial team, and be in the best interest for the American tax dollars.
       Currently, they believe that having the duties of the CFO be subsumed into CMSO
       creates an appearance of little independence between both program and financial
       activities and may hinder transparency.
   •	 According to a CMS stakeholder, one could argue that there is a need for separate
      Medicare and Medicaid CFOs. However, this stakeholder does not feel that this is a good
      idea due to the expertise within CMSO and the complexity of the program, and that if the
      duties of such a position were segregated; they should be resident within CMSO.
   •	 CMSO indicated that it believes that the merits of having one person directly accountable
      to the legislators argue for no separate CFO. In regard to a segregation of duties between
      the CFO, Chief Operating Officer (COO), and program design and administration this
      CMSO stakeholder feels that because of the way Medicaid is designed these duties would
      be better suited within CMSO. Currently, because the administration of the program is
      within the states, it is the belief of CMSO that there are more than 50 financial managers
      and COOs. In addition, CMSO feels that it is critical due to the complexity of the
      program for one unit to have the global view of activities—both financial and program.
      For example, they expressed a view that believed that a divided structure would not have
      been able to restructure one state’s financing plan successfully because one person saw
      the whole picture thus enabling accountability within that state. Additionally, if more
      segregation of duties is created, CMSO feels that resources will be stretched and believes
      it is more efficient to have CMSO overseeing everything.

Our review of other operating components within DHHS generally identified a separate CFO
from program responsibilities. Although many of the operating components utilized the DHHS
Program Support Center to outsource accounting and bookkeeping responsibilities, the operating
component maintained a separate CFO whose authority dealt with making financial and
budgeting decisions. Such a model, segregating the duties of the CFO from the duties of the
underwriter or the loan originator within other insurance and financial related businesses is
generally the norm.

Concerns exist regarding the independence of the CFO activities and the need to enhance
visibility into key decisions. There are differing views on whether or not and how an
independent CFO would address these concerns effectively.


PAYMENT   ERROR     RATE    MEASUREMENT                           DEVELOPMENT             AND
IMPLEMENTATION STILL IN PROCESS

The Federal government and states each have responsibilities for administering Medicaid
programs and for ensuring that Medicaid funds are spent appropriately on covered services
provided to eligible beneficiaries. CMS administers Medicaid at the Federal level and
establishes policies related to preventing and detecting improper payments. Beginning in the
mid-1990s, financial auditors reported that CMS needed to develop a process in estimating
improper payments in the Medicaid/SCHIP programs to mirror similar reporting for the
Medicare program. In FY 2002, Congress passed the Improper Payment Integrity Act (IPIA.)

                                                                                         Page 17
One practical implication of the IPIA has been to require CMS to design a methodology and
calculate an error rate for improper payments within the Medicaid/SCHIP programs. Although
previous pilot programs were initiated through FY 2005, CMS has been unsuccessful in
developing a national error rate for the Medicaid/SCHIP programs.

During FY 2006, CMS initiated its implementation of the PERM program—a program whose
methodologies were defined by CMS for consistent application by all states. CMS would use
HCFAC funds to reimburse the states for costs incurred. Under PERM, Medicaid has 3
components – a fee-a-for-service error rate, an eligibility error rate, and a managed care error
rate. A national contractor will calculate the Medicaid fee-for-service and managed care error
rates for each state once every 3 years or 17 states each year. The states will conduct an
eligibility review once every 3 years and submit the results to CMS for calculation of the states
eligibility error rate. The PERM is expected to be published as an interim final rule at the end of
August 2006. The effectiveness of result of the first year of the program was not available to us
at the end of fieldwork.

CMS is still determining how the results will be utilized once the program is fully implemented
and what actions will be taken with the states to reduce calculated errors. Legislation—the
DRA— has been passed to add 100 additional staff to support program integrity initiatives. How
these FTEs will be utilized is still under discussion through a DRA workgroup of senior
executives within CMS and DHHS.

Based on discussions certain concerns with the PERM program were raised. One stakeholder
expressed a belief that, because the primary purpose of the PERM is to provide a tool for
satisfying the requirements of the IPIA, and because of the methodologies being employed, the
PERM may not be suitable for some other desirable program oversight purposes. For example,
because the PERM will calculate an error rate for each state only every third year, the
stakeholder believes it will be difficult for states to use PERM results to monitor the
effectiveness of corrected actions. Further, the stakeholder believes the PERM is not designed to
produce a national error rate that is comparable from year to year, a comparison that might be
useful for CMS’s oversight of Medicaid. More broadly the stakeholder believes that devoting
state and Federal resources to the measurement of an error rate is likely to leave fewer resources
available for addressing the underlying causes of the errors measured. However, other
stakeholders indicated that the results from PERM would likely be used for some of the same
purposes the previous stakeholder questioned.

When stakeholders were asked how the resulting measures would be used to improve Medicaid
program integrity, most stakeholders indicated that trends could be developed to determine if
progress was being made to reduce, prevent and detect improper payments. CMSO indicated
that it would consider eventually using the error rate process to pursue with each state
reimbursement for improper payments.

There will be a substantial investment of resources in developing error rate measures under
PERM for compliance with IPIA. The ultimate focus of the program is still under development,
as is the strategy to use the results of PERM on managing the program. Pending finalization of
such plans and processes, the ultimate use of this information remains to be determined.



                                                                                            Page 18
STATE OVERSIGHT AND SINGLE AUDIT PRIMARY TEST FOR ELIGIBILITY AND
PROGRAM COMPLIANCE

Medicaid is a needs-based program that provides payment for certain medical services to low-
income individuals and families. The costs and administration of the Medicaid program are
shared by the Federal and state governments. Administration at the state level includes
determining individuals’ eligibility and benefit levels. Federal oversight responsibilities include
monitoring states’ performance using MEQCS. In determining eligibility, mistakes are
sometimes made or inaccurate information provided, which results in overpayments of medical
services provided to clients. Overpayments generally result when a (1) participating household
or individual intentionally provides incorrect or insufficient information on which eligibility
determinations are based, (2) participating household or individual unintentionally provides
incorrect or insufficient information, or (3) state administering agency incorrectly determines
eligibility or benefits or does not correctly act on client-reported information. Program
administrators try to prevent overpayments by carefully determining an applicant’s initial
eligibility. However, errors are difficult to identify and when errors are made and identified,
recovering overpayments is often very time consuming and difficult.

One of the primary tools in testing the states’ quality control systems over determination of
eligibility is the state’s single audits. During FY 2005, 11 states received disclaimers or
qualified reports by independent auditors on compliance with Medicaid program requirements,
compliance findings in single auditors’ reports requiring resolution, and various differences in
processes, systems, and issues from state to state. The majority of these disclaimers or
qualifications were a result of noncompliance with eligibility requirements.

We discussed with the stakeholders whether the CMS should expand its role in determining
eligibility. Because responsibility for eligibility determination is statutorily assigned to the
states, stakeholders generally believed that CMS’ role should be in overseeing the
implementation of quality control systems at the states to reduce errors in eligibility
determination. Although CMS performs some follow up on findings identified in the single
audits including comments related to eligibility determination, the majority of the stakeholders
believed that more needed to be done. According to one stakeholder, there needs to be more
funding directed to expanding the role of the Federal government when it comes to the oversight
of the states regarding eligibility.

Our work suggests that further emphasis to follow up on single audit findings with a particular
emphasis on eligibility is warranted. CMS noted efforts were underway subsequent to our
fieldwork to resolve current outstanding A-133 audits and to ensure prompt and timely resolution
of future audits.


RECOMMENDATIONS FOR EXECUTIVE ACTION

Recent initiatives to provide an additional 100 personnel focused on Medicaid financial
management, and just enacted legislation, to add a further 100 personnel and additional financial
resources focused on program integrity are significant steps that can dramatically enhance the
role the Federal government plays in managing the Federal and state partnership for Medicaid.

                                                                                            Page 19
Factors for CMS to consider as it develops its plans to deploy resources include placing
additional focus on how such resources are deployed and utilized, efforts to provide transparency
in how state plan amendments, waivers, and routine Federal oversight activities are conducted
with visibility into outcomes across states to the extent practical, and/or potentially introducing
financial management oversight through a CFO organization independent of program
administration activities. To strengthen Medicaid internal controls and financial oversight
processes that CMS has in place to ensure the effective processing of Medicaid activity, we
recommend the following:

   •	 Segregate, where practicable, the program activities associated with administering the
      Medicaid program from the financial management related aspects traditionally associated
      with the activities of CFOs. Because of the unique nature of the Medicaid program
      certain duties might continue to be within CMSO even though those duties are of a
      financial nature.
   •	 To the extent possible, provide visibility into the program administration activities,
      including judgments regarding individual state operations, which can help ensure that
      decisions are made transparently and consistently across jurisdictions recognizing the
      unique nature of each local Medicaid program. Because routine judgments or
      interpretations may have long term funding consequences, a process to assess which
      decisions merit further visibility should be developed and implemented.
   •	 Consider aligning the regional office personnel to headquarter program offices or
      consider developing a mechanism so that as priorities change a minimum number of
      FTEs are continuously focused on Medicaid financial administration and oversight
      activities. Such alignment change options range from fundamentally revisiting the
      regional structure to building on the existing annual region plans to designate particular
      personnel and provide for input regarding performance of the personnel assigned and
      resources devoted by program (CMSO) personnel.
   •	 Continue to develop a process to monitor the responsibilities of the new 100 funding
      specialists and the results of their efforts. Additionally, consider reviewing periodically
      the distribution of the specialists to ensure proper allocation to locations that may need
      further emphasis to be responsive to risk. One input to this process may lie in the
      severity and nature of single audit findings.
   •	 Continue to develop a comprehensive strategic plan through the work of the DRA
      workgroup in identifying the authority and responsibility and in the recruiting, training
      and placement of the new 100 FTEs that have been recently legislated within the DRA.
   •	 Develop a strategy in enhancing internal control as it relates to assessing state quality
      control systems over eligibility determination, and following up on single audit issues.
   •	 Continue to refine procedures to provide a mechanism for CMS central and regional
      offices to monitor states’ activities, documenting the results, and enforce compliance and
      consistency with CMS financial management procedures.
   •	 Continue to develop strategies in refining communication between the States, regional
      offices, and headquarters to ensure the various groups complement each other’s efforts in



                                                                                            Page 20
      carrying out their authority in accomplishing the Medicaid Program goals. This is critical
      with limitations of available resources.
   •	 Continue in the implementation of the PERM process to estimate improper payments for
      both the Medicaid and SCHIP- related payments. Additionally, develop a strategy on
      how the results of the PERM will be utilized in strengthening internal control and
      reducing improper payments.
   •	 Continue to enhance its financial systems at the Federal and state level to ensure
      compliance with the Federal requirements.


AGENCY COMMENTS AND OUR EVALUATIONS

During August 2006, we received written comments from CMS on a draft of this report. The full
text of CMS comments is located in Appendix B. In its written comments, CMS outlined a
series of actions it has begun to take to address its Medicaid financial management challenges—
many of which were implemented or in process of being implemented subsequent to our end of
fieldwork for this report. These improvements included creation of the Medicaid Integrity Group
(MIG) and the implementation of the Comprehensive Medicaid Integrity Plan, among others.

Additionally, CMS indicated they did not believe it was necessary to create another new and
separate financial structure for Medicaid financial management activities, at a time when they
continue to move forward rapidly on many unprecedented steps to strengthen Medicaid financial
management. CMS further indicated that they believe that their limited resources should
continue to be focused on improvements to the current oversight structure. Finally, CMS
included certain technical comments that were considered and incorporated, as deemed
appropriate, in the completion of this report.




                                                                                         Page 21
            Centers for Medicare & Medicaid Services
                           Acronyms


AQR      Audit Quality Review Program
CFO      Chief Financial Officer
COO      Chief Operating Officer
CMS      Centers for Medicare & Medicaid Services
CMSO     Centers for Medicaid and State Operations
DHHS     Department of Health and Human Services
DPM      Division of Payment Management
DRA      Deficit Reduction Act
FMAP     Federal Matching Assistance Percentage
FTE      Full-Time Equivalent
FY       Fiscal Year
GAO      Government Accountability Office
HCFAC    Health Care Fraud and Abuse
HIGLAS   Health Care Integrated General Ledger Accounting System
IPIA     Improper Payment Integrity Act of 2002
MAPS     Medicaid Alliance for Program Safeguards
MBES     Medicaid Budget and Expenditure System
MEQC     Medicaid Eligibility and Quality Control
MIP      Medicare Program Integrity
NIPT     National Non-Institutional Provider Team
NIRT     National Institutional Reimbursement Team
OACT     CMS Office of the Actuary
OFM      Office of Financial Management
OIG      Office of Inspector General
OMB      Office of Management and Budget
PERM     Payment Error Rate Measurement Program
RO       Regional Offices
SCHIP    State Children’s Health Insurance Program
SPA      State Plan Amendments


                                                                   Page 22
                       Centers for Medicare & Medicaid Services 

                                Other Related Products 




  •	 The Kaiser Commission on Medicaid and the Uninsured “Medicaid’s Federal-State
     Partnership: Alternatives for Improving Financial Integrity”, February 2004
  •	 The Committee on Energy and Commerce Joe Barton, Chairman U.S. House of
     Representatives “Barton Seeks Medicaid Documents From Hospitals”, January 2005
  •	 Ernst & Young’s Report on Internal Control, Report on Compliance with Laws and
     Regulations, December 1, 2004, and CMS’s response, November 19, 2004
  •	 Ernst & Young’s FY 2005 Report on Internal Control, Report on Compliance with Laws
     and Regulations, October 28, 2005
  •	 Letter from the Honorable Charles E. Grassley, Chairman, Committee on Finance,
     August 18, 2004, and CMS’s response, January 18, 2005
  •	 Reducing Medicaid Fraud The Potential of the False Claims Act, June 2003
  •	 The Kaiser Commission on Medicaid and the Uninsured “Upper Payment Limits:
     Reality and Illusion in Medicaid Financing”, February 2002
  •	 Testimony of Dennis Smith, Director CMSO, Senate Subcommittee on Federal Financial
     Management, March 28, 2006


OIG Reports
  •	 Adequacy of Washington State’s Medicaid Payments to Newport Community Hospital,
     Long-Term Care Unit (A-10-04-00001), March 2005
  •	 Review of Colorado’s Accounts Receivable System for Medicaid Provider Overpayments
     (A-07-04-03049) July 2004
  •	 Audit of Medicaid Family Care Administrative Costs Claimed for the Period
     October 1, 1999 through December 31, 2002 – Wisconsin Department of Health and
     Family Services Madison, Wisconsin (CIN A-05-03-00067), June 2004
  •	 Testimony of Daniel R. Levinson, Inspector General, Senate Subcommittee on Federal
     Financial Management, March 28, 2006
  •	 Review of Ohio’s Medicaid Disproportionate Share Hospital Payments (A-05-01-0058),
     June 2004




                                                                                   Page 23
                      Centers for Medicare & Medicaid Services 

                               Other Related Products 




  •	 Review of Alabama’s Medicaid Disproportionate Share Hospital Program

     (A-04-01-02006), June 2004 

  •	 Audit of California’s Medicaid Selective Provider Contracting Program, July 1, 1998
     through June 30, 2002 (A-09-02-00082), May 2004
  •	 Audit of Medicaid Provider Accounts Receivable Overpayments In Iowa 

     (A-07-04-01002), March 2004 

  •	 Testimony of George M. Reeb, Assistant Inspector General for CMS, March 18, 2004
  •	 Review of Medicaid Disproportionate Share Hospital Payment Limits for St. Vincent
     Charity Hospital and St. Luke’s Medical Center, Cleveland, Ohio (A-05-01-00087),
     March 2004
  •	 Review of Medicaid Upper Payment Limit Requirements for Michigan 

     (A-05-03-00065), January 2004 

  •	 Review of Federal Reimbursement for Health Care Coverage Under the State Children’s
     Health Insurance Program and Medicaid Program Wisconsin Department of Health and
     Family Services, Madison, Wisconsin (A-05-03-00092), October 2003
  •	 Testimony of Michael F. Mangano, Principal Deputy Inspector General, June 13, 2002
  •	 Medicaid Post Payment Safeguards (OEI-05-99-00072), July 2000
  •	 Medicaid Claims Processing Safeguards (OEI-05-99-00071), July 2000
  •	 Medicaid Proactive Safeguards (OEI-05-99-00070), July 2000


GAO Reports
  •	 Head Start Comprehensive Approach to Identifying and Addressing Risks Could Help
     Prevent Grantee Financial Management Weaknesses (GAO-05-176), February 2005
  •	 Medicaid Drug Rebate Program Inadequate Oversight Raises Concerns About Rebates
     Paid to States (GAO-05-102), February 2005
  •	 High-Risk Series An Update (GAO-05-207), January 2005
  •	 Medicaid Program Integrity State and Federal Efforts to Prevent and Detect Improper
     Payments (GAO-04-707), July 2004




                                                                                   Page 24
                     Centers for Medicare & Medicaid Services 

                              Other Related Products 




•	 Medicaid Waivers DHHS Approvals of Pharmacy Plus Demonstrations Continue to
   Raise Cost and Oversight Concerns (GAO-04-480), June 2004
•	 Medicaid Intergovernmental Transfers Have Facilitated State Financing Schemes
   (GAO-04-574T), March 2004
•	 Federal Budget:   Opportunities for Oversight and Improved Use of Taxpayer funds
   (GAO-03-1029T), July 16, 2003
•	 Medicaid and SCHIP: Recent DHHS Approvals of Demonstration Waiver Projects Raise
   Concerns (GAO-02-817), July 2002
•	 Medicaid Integrity: Implementation of New Program Provides Opportunities for Federal
   Leadership to Combat Fraud and Abuse (GAO-06-578T), March 28, 2006
•	 Medicaid Financial Management: Better Oversight of State Claims for Federal
   Reimbursement Needed (GAO-02-706T), June 13, 2002
•	 Medicaid Financial Management: Better Oversight of State Claims for Federal
   Reimbursement Needed(GAO-02-300), February 2002
•	 Medicaid: HCFA Reversed Its Position and Approved Additional State Financing
   Schemes (GAO-02-147) October 2001
•	 Medicaid Improved Federal Oversight of State Financing Schemes Is Needed
•	 (GAO-04-228), February 2004
•	 SCHIP: DHHS Continues to Approve Waivers That Are Inconsistent with Program
   Goals (GAO-04-166R), January 2004
•	 Medicaid HCFA Reversed Its Position and Approved Additional State Financing
   Schemes (GAO-02-147), October 2001
•	 Medicaid State Efforts to Control Improper Payments Vary (GAO-01-662), June 2001
•	 Medicaid State Financing Schemes Again Drive Up Federal Payments
   (GAO/T-HEHS-00-193), September 2000
•	 Medicaid in Schools Improper Payments Demand Improvements in HCFA Oversight
   (GAO/HEHS/OSI-00-69), April 2000




                                                                                   Page 25
                                                           Centers for Medicare and Medicaid Services (CMS) 

                                                            Chart of CMS' Findings and Corrective Actions 

                                                                              Appendix A

   Report Title, Number, Issuer           Significant Findings as Related to            Summary of Recommendations per Report               Corrective Action Taken or Planned by CMS
                                           Medicaid Financial Management
FY 2005 Report on Internal Control,   The regional offices did not have the             Ernst & Young recommended that CMS                  1. CMSO will revise the regional office Review
Ernst & Young                         resources to conduct a thorough review of         continue to refine its procedures to provide a         Guides for CMS-64, 37, 21, and 21b to
                                      the budget and expenditure submissions            mechanism for CMS central and regional                 include updated statutory and regulatory
                                      from the states. In September 2000, CMSO          offices to monitor states’ activities and enforce      citations and to capture the steps that the
                                      issued financial review guides to assist the      compliance with CMS financial management               regional offices should take in terms of their
                                      regional office analysts in examining budget      procedure by:                                          reviews of the aforementioned reports/forms,
                                      and expenditure reports as well as to             1. Providing specific guidance in the use and       2. The      MBES/CBES         systems     will   be
                                      standardize the review procedures performed          preparation of the Financial Review Guides          programmed to require supervisory sign-off
                                      between analysts and regions.                        to ensure that the regional offices                 on regional office decisions, and
                                                                                           consistently use the guide to document           3. Upon completion of the regional office review
                                                                                           procedures performed during the quarterly           guides, Central office staff will request copies
                                                                                           expenditure and budgetary reviews and that          of regional office work papers to perform 6
                                                                                           any decision to expand or curtail the scope         desk audits. Central office staff will travel to
                                                                                           of the review or review procedures be               four of the regional offices to perform in-depth
                                                                                           documented; and                                     reviews.
                                                                                        2. Developing a specific scope to be used to
                                                                                           identify areas for review and that this scope,
                                                                                           or any deviations from the scope, be
                                                                                           documented within the trend analysis work
                                                                                           paper(s) along with explanations.

FY 2005 Report on Internal Control,   Insufficient Documentation/Lack of Grants         Ernst & Young recommended that DHHS and             Corrective    actions    are   currently  being
Ernst & Young                         Monitoring.     During the review of single       its Operating Divisions:                            coordinated between the Office of Inspector
                                      audits performed for recipients of Federal        1. Coordinate with the Census Bureau, the           General and the CMSO. Additionally, CMSO
                                      awards, untimely submission of audit reports          centralized warehouse for Single Audit          has hired 100 new funding specialists to work
                                      and lack of evidence of follow-ups on audit           reports, to ensure the notification of the      with the states to gain compliance with Medicaid
                                      findings were noted. Additionally, CMS does           receipt of reports are received timely and      requirements.
                                      not sufficiently analyze or track resolution of       information is accurate;
                                      findings at the States resulting from audits of   2. Develop or enhance procedures to ensure
                                      internal controls in Medicaid and State               that DHHS grant recipients per the PMS
                                      Children's Health Insurance programs                  system are reviewed/audited in accordance
                                      (SCHIP).                                              with A-133 and tracked in the current
                                                                                            system available. PMS and the tracking
                                                                                            systems should be reconciled based on
                                                                                            common identifiers on an ongoing basis,
                                                                                            and
                                                                                        3. Develop        clear    documentation      to
                                                                                            demonstrate follow-up on audit findings and
                                                                                            disclaimers of opinion on Medicaid program
                                                                                            compliance. Additionally, CMS does not
                                                                                            sufficiently analyze or track resolution of
                                                                                            findings at the States resulting from audits
                                                                                            of internal controls in Medicaid and State
                                                                                            Children's Health Insurance programs.



                                                                                        Page 1 of 7
                                                           Centers for Medicare and Medicaid Services (CMS) 

                                                            Chart of CMS' Findings and Corrective Actions 

                                                                              Appendix A

   Report Title, Number, Issuer           Significant Findings as Related to           Summary of Recommendations per Report              Corrective Action Taken or Planned by CMS
                                           Medicaid Financial Management
FY 2005 Report on Internal Control,   Ernst & Young found that although the            Ernst & Young recommended that CMS enlist          A workgroup consisting of CMSO, OACT, and
Ernst & Young                         methodology currently employed by CMS            OACT to help review the annual Medicaid            OFM will meet periodically to discuss the
                                      can produce a reasonable IBNR estimate for       IBNR calculation.    Ernst & Young further         progress in developing a methodology to collect
                                      Medicaid, the process is highly dependent on     recommended that formal analytical review          the necessary data to estimate an IBNR amount
                                      information provided by the various states.      procedures (i.e. documented and reviewed) be       from claims data maintained internally. To
                                      Errors,      inconsistencies   and     varying   developed to prevent or detect clerical errors     accomplish this objective, OACT and CMSO will
                                      interpretations at the state level can occur     in the spread sheets and that CMS proactively      work to:
                                      and significantly affect the CMS IBNR            obtain input from the states via the regional
                                      liability. It should be noted that a 15-month    offices on trends, system changes, program         1. Create a medical statistical information
                                      time-lag exists from the date of the state       changes, etc. associated with individual states.      system (MSIS) extract for three states for FY
                                      IBNR information to the date of CMS’ fiscal      For SCHIP, Ernst & Young recommended that             2003 and FY 2004 containing data elements
                                      year-end calculation. Repeat Finding.            CMS identify a methodology for estimating an          needed for analyzing claim lags,
                                                                                       IBNR for SCHIP related expenditures.               2. Conduct exploratory analysis to determine
                                                                                                                                             feasibility of using MSIS data in evaluating
                                                                                                                                             state IBNR submissions. This will involve
                                                                                                                                             comparing estimates of IBNR at 9/30/02 with
                                                                                                                                             subsequent MSIS payments and developing
                                                                                                                                             claims lag factors from MSIS data and
                                                                                                                                             analyzing      for    reasonableness      and
                                                                                                                                             consistency,
                                                                                                                                          3. If exploratory analysis conducted in (2) is
                                                                                                                                             favorable, estimate resources needed to
                                                                                                                                             produce similar data and analysis for all
                                                                                                                                             states on an ongoing basis,
                                                                                                                                          4. OACT will develop an implementation plan
                                                                                                                                             for ongoing use of MSIS in evaluating the
                                                                                                                                             state IBNR submissions,
                                                                                                                                          5. OACT will review the data received from the
                                                                                                                                             Medicaid IBNR surveys for reasonableness,
                                                                                                                                             compare it to the MSIS extract described in
                                                                                                                                             (1) and make a determination as to the
                                                                                                                                             methodology for the calculation of the
                                                                                                                                             Medicaid IBNR estimate,
                                                                                                                                          6. OACT will provide the final estimate for the
                                                                                                                                             Medicaid IBNR for inclusion into CMS'
                                                                                                                                             financial statements, and
                                                                                                                                          7. CMSO/OFM/OACT will draft the policies and
                                                                                                                                             procedures for the calculation of the Medicaid
                                                                                                                                             IBNR.




                                                                                       Page 2 of 7
                                                           Centers for Medicare and Medicaid Services (CMS) 

                                                            Chart of CMS' Findings and Corrective Actions 

                                                                              Appendix A

   Report Title, Number, Issuer           Significant Findings as Related to            Summary of Recommendations per Report           Corrective Action Taken or Planned by CMS
                                           Medicaid Financial Management
FY 2005 Report on Internal Control,   CMS' financial management system (FMS) is         Ernst & Young recommended that CMS              CMS is currently in the process of implementing
Ernst & Young                         not compliant with Federal Financial              continue to enhance its financial systems to    a new integrated financial management system
                                      Management Improvement Act (FFMIA).               ensure compliance with FFMIA.                   and updating its policies and procedures that
                                      Ernst & Young noted certain deficiencies with                                                     may resolve CMS' system issues (i.e. MBES
                                      FMS that currently would not be considered a                                                      and integrated through HIGLAS by the end of
                                      single integrated financial system such as the                                                    FY 2006).
                                      limited traceability between FMS, MBES, and
                                      FACS. Repeat Finding.


FY 2005 Report on Internal Control,   CMS' FMS does not meet the criteria               Ernst & Young recommended that CMS              CMS is currently in the process of implementing
Ernst & Young                         specified in the FMFIA. Specifically, CMS         continue to enhance its financial systems to    a new integrated financial management system
                                      does not have an integrated financial             ensure compliance with FMFIA.                   and updating its policies and procedures that
                                      management system, and CMS' FMS is                                                                may resolve CMS' system issues. (i.e., MBES
                                      unable to prepare financial statements and                                                        and integrated through HIGLAS by the end of
                                      the Statement of Transactions as required.                                                        FY 2006).
                                      CMS' FMS does not provide the appropriate
                                      level of detail to support data analysis by the
                                      budget staff. Repeat Finding.

FY 2005 Report on Internal Control,   CMS is not fully compliant with the Improper      Ernst & Young recommended that CMS              On October 5, 2005, an interim final rule was
Ernst & Young                         Payment Information Act of 2002 (IPIA).           continue to implement a process to estimate     published in the Federal Register, which
                                      Ernst & Young noted that the nationwide           improper payments for both the Medicaid and     indicated that CMS will measure Medicaid and
                                      estimates of Health Programs’ improper            SCHIP-related payments.                         SCHIP managed care and eligibility error rates.
                                      payments and rates were not reported in FY                                                        The CMS expects to be fully compliant with IPIA
                                      2005. Repeat Finding.                                                                             by FY 2008. The CMS has established an
                                                                                                                                        eligibility workgroup to make recommendations
                                                                                                                                        on the best approach to conduct Medicaid and
                                                                                                                                        SCHIP eligibility reviews. The plan is to have
                                                                                                                                        recommendations from the workgroup in FY
                                                                                                                                        2006 so that eligibility reviews can commence in
                                                                                                                                        FY 2007 for error rate reporting in FY 2008.

FY 2005 Report on Internal Control,   There are inadequate formal written policies      Ernst & Young recommended that CMS              CMS is currently in the process of implementing
Ernst & Young                         and procedures in place for access control.       update its policies and procedures.             a new integrated financial management system
                                      Additionally, certain weaknesses were                                                             and updating its policies and procedure that
                                      identified during Ernst & Young's vulnerability                                                   may resolve CMS' system issues.
                                      and penetration testing. Repeat Finding.

FY 2005 Report on Internal Control,   CMS      lacks     sufficient integration    or   Ernst & Young recommended that CMS work         The OIG is initiating a review of the obligations
Ernst & Young                         reconciliation and tracking processes to          with Division of Payment Management (DPM)       within DPM and differences that may exist with
                                      ensure that obligation activity within the        to reconcile the expenditures reported on the   the operating division's financial systems. CMS
                                      Payment Management System, which tracks           CMS 64 and the PMS 272.                         is currently developing a corrective action plan
                                      draws for state grants, is consistent with                                                        to resolve this issue.
                                      obligation activity within CMS’ general ledger.

                                                                                        Page 3 of 7
                                                            Centers for Medicare and Medicaid Services (CMS) 

                                                             Chart of CMS' Findings and Corrective Actions 

                                                                               Appendix A

    Report Title, Number, Issuer           Significant Findings as Related to           Summary of Recommendations per Report                  Corrective Action Taken or Planned by CMS
                                            Medicaid Financial Management
                                       Currently, the states use a CMS 64 to report
                                       accrued expenditures to CMS while the
                                       states submit a PMS 272 to report
                                       expenditures on a cash basis to the Payment
                                       Management System resulting in inconsistent
                                       expenditure activity within the two systems
                                       for the same grant.

FY 2004 Report on Internal Control,    CMS does not have proper identification and      Ernst & Young recommended that CMS                     CMS has implemented a policy of writing white
Ernst & Young                          resolution of financial reporting and            develop a process for proper identification and        papers on certain issues that may affect its
                                       management issues.            As CMS Health      resolution     of     financial    reporting    and    financial statements.
                                       Programs grow and consume additional             management issues.              As CMS Health
                                       resources, at the margin it can be anticipated   Programs grow and consume additional
                                       that certain matters which might formerly be     resources, at the margin it can be anticipated
                                       insignificant in relation to CMS and DHHS as     that certain matters which might formerly be
                                       a whole may loom larger.                         insignificant in relation to CMS and DHHS as a
                                                                                        whole may loom larger.
•   Adequacy of Washington State’s     There is no assurance that the Medicaid          CMS must establish consistent, clear-cut               The CMS will not approve new SPA proposals
    Medicaid Payments to Newport       funds paid are actually used for the intended    guidelines        about       states’      financing   until states have fully explained how they
    Community Hospital, Long-Term-     purposes. States have used varied financing      arrangements. There should be assurance                finance their Medicaid programs and until such
    Care Unit, (A-10-04-00001), OIG;   schemes,           sometimes         involving   that the funds paid are actually used for the          time that states have agreed to terminate any
                                       intergovernmental transfers, or IGTs, to         intended purposes. There should be a clear             such financing schemes. The CMS is working
•   Review of Alabama’s Medicaid       increase     Federal    Medicaid     matching    trail of responsibility within the State as to who     with states to terminate such practices, which
    Disproportionate Share Hospital    payments.      Some states, for example,         is accountable for proper expenditure of               many states have agreed to stop as of the end
    Payments (A-04-01-02006), OIG;     receive Federal matching funds on the basis      Medicaid funds. The State Medicaid agency              of their 2005 state fiscal year. As of September
•   Review of Ohio’s Medicaid          of large Medicaid payments to certain            must ensure that quality and timely healthcare         30, 2005, 26 states have terminated 62 such
    Disproportionate Share Hospital    providers, such as nursing homes operated        services are being delivered to properly               financing practices effective with the end of their
    Payments, (A-05-01-00058),         by local governments, which exceed               eligible beneficiaries.                                state fiscal year 2005.
    OIG;                               established Medicaid rates.        The large
•   High Risk Series an Update,        payments are often temporary, since the
    (GAO-05-207), GAO;                 states can require the local-government
                                       providers to return all or most of the money
•   Testimony of George M. Reeb,       to the states. States can use these funds –
    Assistant Inspector General for    which essentially make a round-trip from the
    the Centers for Medicare and       states to providers and back to the states at
    Medicaid Audits to the House       their own discretion.
    Committee on Energy and
    Commerce, March 18, 2004;
•   Medicaid Intergovernmental
    Transfers Have Facilitated State
    Financing Schemes (GAO-04
    574T), GAO




                                                                                        Page 4 of 7
                                                             Centers for Medicare and Medicaid Services (CMS) 

                                                              Chart of CMS' Findings and Corrective Actions 

                                                                                Appendix A

    Report Title, Number, Issuer           Significant Findings as Related to             Summary of Recommendations per Report                   Corrective Action Taken or Planned by CMS
                                            Medicaid Financial Management

•   Medicaid Program Integrity:        CMS has a problem with Medicaid fraud and          The management oversight structure should               CMS has hired 100 additional FTEs to support
    State and Federal Efforts to       its limited oversight is insufficient to protect   be adequate to ensure that Medicaid funds are           CMSO in the oversight of the state's budget and
    Prevent and Detect Improper        the integrity of the program.                      paid only for health care services and products         expenditure processes. Additionally, CMS has
    Payments, (GAO-04-707), GAO                                                           that are appropriate and necessary.                     initiated its implementation of the new PERM
                                                                                                                                                  process that is expected to calculate an
•   Medicaid Improved Federal                                                                                                                     improper payment rate for each state once
    Oversight of State Financing                                                                                                                  every three years.
    Schemes Is Needed, (GAO-04
    228), GAO

•   Medicaid Financial Management:     Better oversight of state claims for Federal       Risk Assessment - GAO recommended that                  CMS has hired 100 additional FTEs to support
    Better Oversight of State Claims   reimbursement is needed.                           the CMS Administrator revise current risk               CMSO in the oversight of the state's budget and
    for Federal Reimbursement                                                             assessment efforts in order to more effectively         expenditure processes. Additionally, CMS has
    Needed (GAO/AIMD 02-300),                                                             and efficiently target oversight resources              began its implementation of the new PERM
    GAO                                                                                   towards areas most vulnerable to improper               process that is expected to calculate an
                                                                                          payments by:                                            improper payment rate for each state.
                                                                                          •   collecting, summarizing, and incorporating
                                                                                              profiles of state financial oversight activities,   During FY 2002, CMS instituted a Financial
                                                                                              that    include      information    on     state    Management work planning process. Under the
                                                                                              prepayment edits, provider screening                process each regional office proposes an
                                                                                              procedures, postpayment detection efforts,          annual workplan describing specific activities
                                                                                              and payment accuracy studies;                       which it will perform and be held accountable for
                                                                                                                                                  throughout the fiscal year. Each regional office
                                                                                          •   incorporating information from reviews of           workplan is reviewed and approved through the
                                                                                              state initiatives to prevent Medicaid fraud         Regional Administrator and the CMSO. The
                                                                                              and abuse;                                          process incorporates a resource assessment
                                                                                          •   developing     and    instituting feedback          effort and risk assessment and analysis. CMS
                                                                                              mechanisms to make risk assessment a                indicated that the goal in establishing the FM
                                                                                              continuous process and to measure                   workplan is to strengthen CMS’ Medicaid
                                                                                              whether risks have changed as a result of           financial oversight by establishing performance
                                                                                              corrective actions taken to address them;           expectations, track related actions and their
                                                                                              and                                                 results, and improve communication among
                                                                                          •   completing efforts to develop an approach           CMSO and the regions Finally, through the DRA
                                                                                              to payment accuracy reviews at the state            act, Medicaid will be hiring 100 additional FTE's
                                                                                              and national levels.                                to support program integrity initiatives.

•   Medicaid Financial Management:     Better oversight of state claims for Federal       Financial Oversight Control Activities---GAO            CMS has hired 100 additional FTEs to support
    Better Oversight of State Claims   reimbursement is needed.                           recommended that the CMS administrator                  CMSO in the oversight of the state's budget and
    for Federal Reimbursement                                                             restructure oversight control activities by             expenditure processes.      Training has been
    Needed (GAO/AIMD 02-300),                                                             •   increasing in-depth oversight of areas of           provided to ensure regional office personnel and
    GAO                                                                                       higher risk as identified from the risk             the new FTE's understand CMSO policies.
                                                                                              assessment efforts and applying fewer
                                                                                              resources to lower risk areas;
                                                                                          •   incorporating advanced control techniques,
                                                                                              such as data mining, data sharing, and

                                                                                          Page 5 of 7
                                                           Centers for Medicare and Medicaid Services (CMS) 

                                                            Chart of CMS' Findings and Corrective Actions 

                                                                              Appendix A

    Report Title, Number, Issuer           Significant Findings as Related to         Summary of Recommendations per Report                Corrective Action Taken or Planned by CMS
                                            Medicaid Financial Management
                                                                                          neural networking, where practical to detect
                                                                                          potential improper payments; and
                                                                                      •   using comprehensive Medicaid payment
                                                                                          data that states must provide in the
                                                                                          legislatively mandated national MSIS
                                                                                          database.


•   Medicaid Financial Management:     Better oversight of state claims for Federal   Monitoring Performance--GAO recommended              CMS has hired 100 additional FTEs to support
    Better Oversight of State Claims   reimbursement is needed.                       that    the   CMS      Administrator   develop       CMSO in the oversight of the state's budget and
    for Federal Reimbursement                                                         mechanisms to routinely monitor, measure,            expenditure processes. Additionally, CMS has
    Needed (GAO/AIMD 02-300),                                                         and evaluate the quality and effectiveness of        began its implementation of the new PERM
    GAO                                                                               financial oversight, including audit resolution,     process that is expected to calculate an
                                                                                      by                                                   improper payment rate for each state.
                                                                                      •   collecting, analyzing, and comparing trend
                                                                                          information on the results of oversight          During FY 2002, CMS instituted a Financial
                                                                                          control activities particularly deferral and     Management work planning process. Under the
                                                                                          disallowance      determinations,     focused    process each regional office proposes an
                                                                                          financial reviews, and technical assistance;     annual workplan describing specific activities
                                                                                                                                           that it will perform and be held accountable for
                                                                                      •   using the information collected above to         throughout the fiscal year. Each regional office
                                                                                          assess   overall   quality   of  financial       workplan is reviewed and approved through the
                                                                                          management oversight;                            Regional Administrator and the CMSO. The
                                                                                      •   identifying standard reporting formats that      process incorporates a resource assessment
                                                                                          can be used consistently across regions for      effort and risk assessment and analysis. CMS
                                                                                          tracking open audit findings and reporting       indicated that the goal in establishing the
                                                                                          on the status of corrective actions; and         financial management workplan is to strengthen
                                                                                      •   revising audit tracking reports to ensure that   CMS’       Medicaid    financial  oversight   by
                                                                                          all audits with Medicaid related findings are    establishing performance expectations, track
                                                                                          identified and promptly reported to the          related actions and their results, and improve
                                                                                          regions for timely resolution.                   communication among CMSO and the regions.
                                                                                                                                           Finally, through the DRA act, Medicaid will be
                                                                                                                                           hiring 100 additional FTE's to support program
                                                                                                                                           integrity initiatives.

 "Medicaid Financial Management:       Better oversight of state claims for Federal   Organizational Structure-GAO recommended             During FY 2002, CMS instituted a Financial
Better Oversight of State Claims for   reimbursement is needed.                       that the CMS administrator establish                 Management work planning process. Under the
Federal Reimbursement Needed"                                                         mechanisms to help ensure accountability and         process each regional office proposes an
(GAO/AIMD 02-300), GAO                                                                clarify  authority   and    internal control         annual workplan describing specific activities
                                                                                      responsibility between regional office and           that it will perform and be held accountable for
                                                                                      headquarters financial managers by                   throughout the fiscal year. Each regional office
                                                                                      •   including   specific Medicaid    financial       workplan is reviewed and approved through the
                                                                                          oversight performance standards in senior        Regional Administrator and the CMSO. The
                                                                                          managers’ performance agreements; and            process incorporates a resource assessment
                                                                                                                                           effort and risk assessment and analysis. CMS

                                                                                      Page 6 of 7
                                              Centers for Medicare and Medicaid Services (CMS) 

                                               Chart of CMS' Findings and Corrective Actions 

                                                                 Appendix A

Report Title, Number, Issuer   Significant Findings as Related to   Summary of Recommendations per Report               Corrective Action Taken or Planned by CMS
                                Medicaid Financial Management

                                                                    •    developing a written plan and strategy, that   indicated that the goal in establishing the
                                                                        clearly defines and communicates the goals      financial management workplan is to strengthen
                                                                        of Medicaid financial oversight and             CMS’      Medicaid     financial  oversight      by
                                                                        responsibilities for implementing and           establishing performance expectations, track
                                                                        sustaining improvements.                        related actions and their results, and improve
                                                                                                                        communication among CMSO and the regions.
                                                                                                                        Finally, CMS has implemented a performance
                                                                                                                        program whereby 20 top goals are developed
                                                                                                                        for Medicaid and distributed in the performance
                                                                                                                        plans of its executives down to the lower staff.




                                                                    Page 7 of 7
